<html>
<title> - ANALYZING MISCONDUCT IN FEDERAL LAW ENFORCEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                    ANALYZING MISCONDUCT IN FEDERAL 
                            LAW ENFORCEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2015

                               __________

                           Serial No. 114-28

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
                               __________________
      
      
      
      
                       U.S. GOVERNMENT PUBLISHING OFFICE
 91-148 PDF                      WASHINGTON : 2015       
_________________________________________________________________________________
      For sale by the Superintendent of Documents, U.S. Government Publishing Office,
            Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
           Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana
KEN BUCK, Colorado
MIKE BISHOP, Michigan

                     Caroline Lynch, Chief Counsel

                  Joe Graupensperger, Minority Counsel
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              

                             APRIL 15, 2015

                                                                   Page

                               WITNESSES

Honorable Michael E. Horowitz, Inspector General, United States 
  Department of Justice
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Honorable John Roth, Inspector General, United States Department 
  of Homeland Security
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
Herman E. ``Chuck'' Whaley, Deputy Chief Inspector, Office of 
  Professional Responsibility, Drug Enforcement Administration, 
  United States Department of Justice
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31
Mark Hughes, Chief Integrity Officer, United States Secret 
  Service, United States Department of Homeland Security
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable F. James Sensenbrenner, Jr., 
  a Representative in Congress from the State of Wisconsin, and 
  Chairman, Subcommittee on Crime, Terrorism, Homeland Security, 
  and Investigations.............................................     1
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Crime, Terrorism, Homeland Security, 
  and Investigations.............................................     2
Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................     3
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     4

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Questions for the Record from the Honorable Michael 
  E. Horowitz, Inspector General, United States Department of 
  Justice........................................................    78
Response to Questions for the Record from the Honorable John 
  Roth, Inspector General, United States Department of Homeland 
  Security.......................................................    80
Response to Questions for the Record from Herman E. ``Chuck'' 
  Whaley, Deputy Chief Inspector, Office of Professional 
  Responsibility, Drug Enforcement Administration, United States 
  Department of Justice..........................................    82
Response to Questions for the Record from Mark Hughes, Chief 
  Integrity Officer, United States Secret Service, United States 
  Department of Homeland Security................................    86


                    ANALYZING MISCONDUCT IN FEDERAL 
                            LAW ENFORCEMENT

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr., (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Chabot, 
Poe, Labrador, Buck, Bishop, Jackson Lee, and Richmond.
    Staff present: (Majority) Robert Parmiter, Counsel; Alicia 
Church, Clerk; Allison Halataei, Parliamentarian & General 
Counsel; (Minority) Joe Graupensperger, Counsel; and Veronica 
Eligan, Professional Staff Member.
    Mr. Sensenbrenner. The Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations will come to order.
    Let me say, we are due to have roll calls a little bit 
after 3:15, and in order to save time, I am going to ask 
unanimous consent to put my opening statement into the record 
and ask unanimous consent that everybody else's opening 
statement be put into the record. This will give more time for 
testimony and more time for questions.
    Without objection, that is so ordered.
    [The prepared statement of Mr. Sensenbrenner follows:]
  Prepared Statement of the Honorable F. James Sensenbrenner, Jr., a 
 Representative in Congress from the State of Wisconsin, and Chairman, 
Subcommittee on Crime, Terrorism, Homeland Security, and Investigations
    Good afternoon, and welcome to today's hearing.
    Over the past few years, there have been a number of troubling 
allegations regarding misconduct by Federal law enforcement agents. 
Since April 2012 alone, nearly a dozen high-profile, widely-reported 
incidents involving highly-trained law enforcement personnel, including 
at the Secret Service and the Drug Enforcement Administration, have 
roiled some of our nation's most venerated law enforcement agencies and 
have shaken law-abiding Americans' faith in these institutions.
    In addition to the problems that have been reported in the media, 
and which largely involve the Secret Service, the Justice Department 
released documents on Monday to this Committee which cause me grave 
concern. In 2010, a DEA Special Agent in Bogota, Colombia, who was a 
frequent patron of prostitution, assaulted a prostitute and ``left the 
woman bloody.'' He was ultimately suspended for 14 days. In 2011, a DEA 
agent solicited sex from an undercover police officer here in the 
District of Columbia. He was suspended for a baffling 8 days. And in 
2012, as we all know from the recent OIG report, DEA agents engaged in 
``sex parties'' with prostitutes supplied by drug cartels. Ten 
individuals were involved. Two received letters of reprimand. One 
retired. The remaining seven were suspended by DEA for ``Poor 
Judgment'' and ``Conduct Unbecoming'', for 2, 1, 3, 3, 9, 10, and 8 
days, respectively. ``Poor Judgment,'' indeed.
    I will not go into the remaining allegations in detail, because I 
have only five minutes, because we have all heard similarly salacious 
details from reading the news, and because our friends at the DOJ and 
DHS Offices of Inspectors General have done excellent work in this 
area. However, it is clear that the allegations of sexual misconduct 
and other shenanigans at the Secret Service and the DEA have given the 
American people the impression that these federal agencies, rather than 
being bastions of professionalism and integrity, can sometimes turn a 
blind eye to behavior that is better suited for the frat house, or the 
big house, than the White House.
    Additionally, I am very troubled by the lack of transparency in the 
disciplinary process. We all know it is unreasonably difficult to fire 
a federal employee, even for gross misconduct. However, the evidence 
points to an epidemic of ``under-discipline'' at the DEA. In many 
cases, we have heard that the offending employees are merely placed on 
administrative leave, moved to desk duty, or quietly ``resign,'' for 
conduct that would be grounds for immediate termination in the private 
sector. This cycle of chronic ``under-punishment'' must not be allowed 
to continue, particularly since many of these agents have done nothing 
less than engage in criminal behavior. I am interested in hearing more 
from our panel about exactly what happens when the agencies receive a 
complaint about the conduct of an employee.
    Following the latest DOJ-OIG report, even Attorney General Holder 
felt compelled to act. He issued a memo which ``reiterate[d] to all 
Department personnel, including attorneys and law enforcement officers, 
that they are prohibited from soliciting, procuring, or accepting 
commercial sex.'' As at least one commentator noted, ``Finally, a 
Holder memo that got it right.'' However, the fact that the Attorney 
General would feel compelled to issue a memo reminding law enforcement 
professionals not to solicit prostitutes shows there are real problems 
at these agencies. That is why we are here today.
    Let me be clear: our intent is not to disparage the vast majority 
of federal law enforcement personnel, who do their jobs professionally 
and honorably. The Secret Service employs some 6,500 people, and DEA 
has 10,000 employees. Every large agency will have a few ``bad 
apples,'' and incidents of this nature will occur. However, the public 
perception is that federal law enforcement personnel can engage in 
severe misconduct, including conduct that would be illegal if committed 
in the United States, and the agencies do not take it seriously. It is 
my hope that our distinguished panel can help this committee identify 
areas where problems exist in the disciplinary process for federal 
agents, so that we can implement real solutions.
    I look forward to engaging with our panel today on all these 
questions.
                               __________

    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
Subcommittee on Crime, Terrorism, Homeland Security, and Investigations
    Today's hearing reflects bipartisan concern about serious instances 
of misconduct by federal law enforcement agents and the need to examine 
the adequacy of the processes used to report and investigate 
misconduct, as well as take disciplinary action when warranted.
    Much of the attention to this issue was initially prompted by the 
revelations in 2012 involving the solicitation of prostitutes by agents 
of the Secret Service and the DEA.
    At the time, it was reported that a dozen Secret Service agents 
engaged the services of prostitutes before a presidential visit to 
Colombia for the Summit of the Americas, which I attended, and we 
subsequently learned that DEA agents were involved in that and other 
incidents involving prostitutes in Colombia.
    In my capacity as Member of the Committee on Homeland Security as 
well as this Committee, I examined the Cartagena incident, and met with 
then-Director Mark Sullivan to express my concern and press for strong 
corrective action, particularly regarding interaction between agents 
and foreign nationals while agents are working in foreign countries.
    In fact, I have had a history of strong oversight with respect to 
issues involving the Secret Service, ranging from the intrusion into 
the White House last year to the 2009 incident in which a couple evaded 
security to attend a state dinner at the White House honoring the Prime 
Minister of India.
    I have met with each of the directors of the Secret Service on 
multiple occasions over the past several years to discuss and address 
performance and misconduct issues. Their mission is critical and 
Congress must work to support and strengthen that agency.
    Certainly, we should engage in consistent, vigorous oversight of 
all of the federal law enforcement agencies to ensure that agents are 
conducting themselves appropriately and within the bounds of the law. 
As the recent report of the Inspector General of the Department of 
Justice makes clear, we have a lot of work to do to address 
unacceptable incidents at a number of our federal law enforcement 
agencies, particularly including the DEA.
    However appropriate this hearing may be, I call on this 
Subcommittee to take on other issues related to law enforcement--but at 
the state and local level.
    We cannot ignore the fact that we have a crisis involving use of 
force by police in this country. Because no accurate statistics are 
required to be submitted or maintained, we do not know the actual 
frequency of police shootings across the country, or all of the 
circumstances in which they take place.
    I call on this Subcommittee to address these issues by holding 
hearings and considering legislation concerning topics such as (1) the 
use of lethal force by state and local police departments, (2) 
educational requirements, mental health and psychological evaluations, 
and training in non-violent conflict resolution received by officers 
and recruits, (3) the use of technological devices such as body 
cameras, and (4) the state of social science research and statistics in 
criminal justice reform.
    We have an obligation to the American people to investigate these 
issues, to find answers, and adopt solutions.
    Less than two weeks ago, a police officer in North Charleston, 
South Carolina shot and killed Walter Scott, an unarmed African 
American man. Cell phone video footage showed that Scott, who was 
struck by four of the eight bullets fired at him, was running away from 
the officer.
    The victim's mother, Judy Scott, stated that, ``I almost couldn't 
look at it, to see my son running defenselessly, being shot. I just 
tore my heart to pieces. I pray that this never happens to another 
person.''
    Her prayer is our call to action. We must investigate what is going 
on with these shootings, which happen with alarming frequency, and we 
must help prevent them from taking place in the future. That is why I 
ask that this Subcommittee take on this issue.
    So as we proceed with the current hearing, to address important 
concerns related to federal law enforcement, I hope that we will 
resolve to work on a bipartisan basis to address these other critical 
issues as well.
    Thank you.
                               __________

    [The prepared statement of Mr. Goodlatte follows:]
Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary
    Thank you, Chairman Sensenbrenner. I am pleased to be here today, 
and I am looking forward to a frank and detailed discussion with our 
distinguished witnesses, and the Members of this Subcommittee, on this 
important subject.
    During my tenure at the helm of this Committee, I have repeatedly 
expressed my appreciation for the dedicated law enforcement 
professionals who protect and serve our communities. Every day, 
thousands of federal law enforcement agents are hard at work, doing 
their part to keep Americans safe and delivering them the justice they 
deserve.
    Unfortunately, the indispensable services provided by the mostly-
anonymous men and women of law enforcement are not what we are here 
today to discuss. Instead, we must deal with serious misconduct that 
has caused the public to forget that competent and professional service 
they expect from their federal law enforcement professionals. It is an 
inescapable fact that the exposure of a rogue agent or unsavory 
incident or series of incidents--such as agents engaging in sex parties 
with prostitutes paid for by drug cartels--stick in the collective 
memory more firmly than entire careers worth of effective, unblemished 
law enforcement work. That is why it is so important that we get to the 
bottom of the troubling revelations involving our federal law 
enforcement agencies over the last decade.
    My colleagues have already laid out some of the specific lapses in 
professionalism and more details can be found in the press. Over the 
past few days, this Committee has received additional information from 
the DEA indicating that our concerns about agent misconduct, 
particularly of a sexual nature, are well-founded. However, of equal 
concern to me is the apparent lack of a sufficient response to that 
misconduct by the officials in the chain of command. The case examples 
we have seen point to an agency with a disturbing tendency not to 
appropriately investigate and punish federal law enforcement agents who 
engage in severe sexual and other misconduct.
    I am pleased that, though they are quite late in doing so, the 
agencies appearing before this Committee today finally seem to be 
taking this seriously. In December 2013, the Secret Service created its 
Office of Integrity, headed by a Chief Integrity Officer, who I assume 
has been quite busy over the last year-and-a-half. On Monday, we 
received a communication from the DEA indicating that their Office of 
Professional Responsibility would undertake ``a comprehensive review of 
DEA's processes and procedures for investigating allegations of 
misconduct, as well as for determining and effectuating disciplinary 
action where appropriate.''
    It is good that DEA is conducting that review. I hope your review 
will result in significant and worthwhile changes to the disciplinary 
process. However, what troubles me is that we are learning about all of 
this only after these allegations have become public. The perception of 
agencies ``protecting their own'' and bad actors receiving ``slaps on 
the wrist'' has gained traction, and Congress has gotten involved. As 
professional law enforcement agencies, your integrity should be above 
reproach.
    Today, this Committee will examine these issues and the processes 
in place to address misconduct at the Secret Service and the DEA. I 
will be interested in our witnesses' responses to a wide array of 
questions. What have you done to address these matters, at the ground 
level? Why was this misconduct allowed to persist for so long, and why 
does it keep occurring? Does Congress need to legislate in this area? 
And most importantly, as the officials responsible for investigating 
and dispensing discipline, how will you ensure that this sort of 
profoundly disreputable behavior will be met with an appropriately 
robust response in the future?
    We all have a responsibility to ensure that such behavior, should 
it happen again in the future, is handled appropriately so that trust 
is rebuilt with the American people and the reputations of our federal 
law enforcement agencies are restored.
    I thank the witnesses for their testimony, and yield back the 
balance of my time.
                               __________

    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary
    The vast majority of federal law enforcement agents perform as we 
would hope, and in fact often engage in acts above and beyond the call 
of duty. We are grateful for their service. Unfortunately, the past few 
years have brought to light a number of instances of unacceptable 
conduct by some of the agents reporting to the Department of Justice 
and the Department of Homeland Security.
    I have several observations and recommendations concerning this 
issue.
    First, it is unacceptable for law enforcement officers to solicit 
prostitution, engage in sexual harassment, or allow alcohol use to 
impair their judgment. Misconduct by law enforcement agents involves 
harm to anyone who would be victimized by their behavior, damages 
morale within the agencies, and undermines the moral authority 
necessary for agents to enforce the law against others.
    Of course these are problems suffered extensively outside the law 
enforcement community as well. But this Committee is charged with the 
responsibility of overseeing the actions of these agents, and we must 
investigate these problems and identify solutions.
    Consequently, we must ensure that there are strong, independent 
mechanisms to review allegations of misconduct. It is difficult for 
government agencies to police themselves. That is why we have 
Inspectors General and other offices within agencies charged with 
investigating misconduct and imposing disciplinary measures, as 
governed by the civil service statutes.
    The authority of the Inspectors General must be respected within 
the Departments, and they must have wide latitude to pursue indications 
of waste, fraud, and abuse. That is why I am disturbed that the DEA and 
FBI reportedly withheld information from Inspector General's 
investigation into these issues. I hope we will hear more about that 
today.
    Finally, I believe the issues we will explore today provide 
additional justification for H.R. 1656, the ``Secret Service 
Improvements Act,'' which will strengthen the Secret Service largely by 
authorizing additional training and resources. I cosponsor this bill 
together with Chairman Bob Goodlatte, Crime Subcommittee Chairman Jim 
Sensenbrenner, and Crime Subcommittee Ranking Member Sheila Jackson 
Lee.
    As we have learned through hearings and other oversight in recent 
months, that agency has been stretched thin and morale has suffered. 
Assistance that the bill would provide will help the Secret Service 
better perform its critical mission and also help a stronger agency 
work to prevent future misconduct.
    I look forward to hearing from our witnesses about their experience 
with these issues and hope they will provide us with recommendations as 
to what steps we can take not only to better address instances of agent 
misconduct, but also to help prevent them from happening in the first 
place.
                               __________

    Mr. Sensenbrenner. I will now introduce each of the 
witnesses. We have a very distinguished panel today.
    I will begin by swearing in our witnesses before 
introducing them. So if you would, all please rise.
    Do you and each of you solemnly swear that the testimony 
you are about to give is the truth, the whole truth, and 
nothing but the truth, so help you God?
    Let the record show that each of the witnesses answered in 
the affirmative.
    You will be getting an abbreviated introduction, as well.
    The first witness is the Honorable Michael Horowitz, who is 
the Inspector General of the Department of Justice. He is well 
known to this Committee. He has worked for DOJ in both main 
Justice as an Assistant Attorney General and as an Assistant 
U.S. Attorney for the Southern District of New York.
    The Honorable John Roth is the Inspector General of the 
Department of Homeland Security. He most recently served as 
Director of the Office of Criminal Investigations of the Food 
and Drug Administration. He is a former Federal prosecutor, a 
senior official at the Department of Justice, and at DOJ he was 
the Department's lead representative on the Financial Action 
Task Force in Paris.
    Herman Whaley is the Deputy Chief Inspector of the Office 
of Professional Responsibility at the DEA. He has had a 
professional career in local law enforcement, as well as a DEA 
Special Agent and a group supervisor.
    Mark Hughes is the Deputy Assistant Director and Chief 
Integrity Officer of the Office of Integrity at the Secret 
Service. He has previously been the Deputy Special Agent in 
Charge of the Washington field office, and the Deputy Special 
Agent in Charge of the Secret Service's Office of Inspection.
    So I think all of you know the drill. You have a red, 
yellow, and green light in front of you. The green light means 
talk away. The yellow light means start to wrap it up. The red 
light means that the hook is about ready to be prepared.
    Mr. Horowitz----
    Ms. Jackson Lee. Mr. Chairman, may I ask a parliamentary 
inquiry? What is happening to the opening statements?
    Mr. Sensenbrenner. They have been dispensed with by 
unanimous consent, everybody's, and they will all be put in the 
record.
    Ms. Jackson Lee. Well, with a great deal of respect, Mr. 
Chairman, I realize I had a constituent in the anteroom, but I 
will hope to be able to make comments regarding my opening 
statement. So I thank the Chairman very much.
    Mr. Sensenbrenner. Okay. Well, each of you will be 
recognized for 5 minutes; and, Mr. Horowitz, you are first.

   TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ, INSPECTOR 
          GENERAL, UNITED STATES DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Mr. Chairman, Ranking Member 
Jackson Lee, Members of the Subcommittee. Thank you for 
inviting me to testify today.
    Federal agents are held to the highest standards of 
conduct, both on duty and off duty. As a former Federal 
prosecutor and as Inspector General, I know that the 
overwhelming majority of Department agents meet those high 
standards and perform their work with great integrity and 
honor, thereby keeping our communities safe and our country 
safe.
    Nevertheless, we find instances where Department agents 
engage in serious misconduct, and even criminal violations, 
affecting the agency's reputation, potentially compromising 
prosecutions, and possibly affecting agency operations.
    Furthermore, misconduct that involves sexual harassment 
affects employee morale and creates a hostile work environment.
    Following the incidents during the President's trip to 
Colombia, the OIG conducted two reviews, one relating to 
Department policies and training involving off-duty misconduct 
by employees working in foreign countries, and one relating to 
the handling of allegations of sexual harassment and misconduct 
by Department law enforcement components.
    Our off-duty conduct report found a lack of Department-wide 
policies or other training requirements pertaining to off-duty 
conduct, whether in the U.S. or other countries. This was 
particularly concerning given recommendations we made in 1996 
that the Department provide additional training regarding off-
duty conduct and examine the standards of conduct that apply to 
off-duty behavior. Despite our earlier recommendations, little 
had changed in the intervening two decades.
    We did find the FBI made changes, including providing 
comprehensive training for its employees. However, the other 
three Department law enforcement components convey little or no 
information about off-duty conduct before sending their 
employees abroad. Having one of only four law enforcement 
components effectively prepare employees for these assignments 
demonstrates the need for Department-wide training and 
policies.
    In March 2015, we issued our report on the nature of 
reporting, investigation, and adjudication of allegations of 
sexual harassment or misconduct in the Department's four law 
enforcement components. The report identified significant and 
systemic issues that require prompt corrective action. These 
include a lack of coordination between internal affairs offices 
and security personnel, failure to report misconduct 
allegations to component headquarters, failure to investigate 
allegations fully, weaknesses in the adjudication process, and 
weaknesses in detecting and preserving sexually explicit text 
messages and images. Together, these reviews demonstrate the 
need to improve disciplinary and security processes, as well as 
to clearly communicate Department expectations for employee 
conduct.
    Strong and unequivocal action from leadership at all levels 
is critical to ensure employees meet the highest standards of 
conduct and are held fully accountable for any misconduct.
    As we also described in our March report, the failure by 
the DEA and FBI to provide prompt information to us in response 
to our requests significantly impacted our review. Both 
agencies raised baseless objections and only relented when I 
elevated the issues to agency leadership. Even then, the 
information was incomplete.
    In order to conduct effective oversight, an OIG must have 
timely and complete access to documents and materials. This 
review starkly demonstrates the danger in allowing those being 
reviewed to decide on their own what documents they will share 
with the OIG. These actions impeded our work, significantly 
delayed the discovery of the issues that we ultimately were 
able to identify, wasted Department and OIG resources, and 
affected our confidence in the completeness of our review.
    Unfortunately, this was not an isolated incident, and we 
continue to face repeated instances in which our timely access 
to records is impeded. Congress recognized the significance of 
this issue in passing Section 218 in the recent Appropriations 
Act. Nevertheless, the FBI continues to proceed exactly as it 
did before Section 218 was enacted.
    We were told an opinion from the Department's Office of 
Legal Counsel would resolve this issue. Yet 1 year later, after 
the Department Deputy Attorney General requested that opinion, 
we still don't have the opinion and we have no timeline for its 
completion. The Department has said the opinion is a priority, 
yet the length of time that has passed would suggest otherwise.
    The American public deserves and expects an OIG that is 
able to conduct rigorous oversight of the Department's and 
FBI's activities. Unfortunately, our ability to do so is being 
undercut every day that goes by without a resolution of the 
dispute.
    Thank you for your continued strong bipartisan support for 
our work, and I would welcome any questions.
    [The prepared statement of Mr. Horowitz follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                               __________
    Mr. Sensenbrenner. Thank you very much, Mr. Horowitz.
    Mr. Roth?

TESTIMONY OF THE HONORABLE JOHN ROTH, INSPECTOR GENERAL, UNITED 
             STATES DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Chairman Sensenbrenner, Ranking Member Jackson 
Lee, and Members of the Subcommittee, thank you for inviting me 
to testify here today to discuss Federal law enforcement 
misconduct within the Department of Homeland Security.
    Inspectors General play a critical role in ensuring 
transparent, honest, effective, and accountable government. The 
personal and organizational independence of IG investigators, 
free to carry out their work without interference by agency 
officials, is essential in maintaining the public trust not 
only of the IG's work but of the DHS workforce as a whole.
    Many DHS components have internal affairs offices that 
conduct investigations. Under the authority of the IG Act, the 
IG has oversight responsibility for those internal affairs 
offices. This oversight responsibility generally takes three 
forms.
    First, we determine upon receipt of a complaint whether the 
allegations are of the type that should be investigated by the 
IG rather than the component's internal affairs office. A DHS 
management directive establishes the IG's right of first 
refusal to conduct investigations of misconduct by DHS 
employees.
    Second, for those investigations the internal affairs 
offices conduct, we have the authority to receive reports on 
and monitor the status of those investigations.
    Lastly, we conduct oversight reviews of DHS component 
internal affairs offices to ensure compliance with applicable 
policies, reporting requirements, and accepted law enforcement 
practices.
    The Department employs more than 240,000 employees and 
nearly an equal number of contract personnel, including a large 
number of law enforcement officers and agents in the U.S. 
Customs and Border Protection, U.S. Immigration and Customs 
Enforcement, the Secret Service, and the Transportation 
Security Administration. We have about 200 investigators in 
headquarters and about 30 field offices across the country, 
which means we have less than one investigator for every 
thousand DHS employees.
    Last year we received over 16,000 complaints. A substantial 
number of those complaints alleged DHS personnel engaged in 
misconduct. We initiated 564 investigations. The remainder were 
referred to component internal affairs offices, other agencies, 
or were closed. Our investigations resulted in 112 criminal 
convictions and 36 personnel actions. Thirteen of these 
convictions involved DHS law enforcement personnel, and 21 of 
the 36 personnel actions involved law enforcement. These 
convictions and personnel actions were for various offenses 
including theft, narcotics, child pornography and bribery.
    In addition to the criminal matters we handled that are in 
my written testimony, we are also responsible for handling 
hundreds of complaints about employee misconduct. These include 
misuse of government assets, including government vehicles, 
failure to report certain contacts with foreign nationals, 
engaging in prohibited personnel practices, violation of 
conflict of interest restrictions on former DHS employees, 
violation of ethical standards concerning government employees, 
improper disclosure of classified or law enforcement-sensitive 
information, illegal drug use or excessive alcohol use, and 
domestic violence and other state and local crimes that affect 
fitness for duty.
    Although a small percentage of our employees have committed 
criminal acts and other misconduct warranting sanctions, the 
behavior of these few should not be used to draw conclusions 
about the character, integrity, or work ethic of the many. I am 
personally grateful for the hard work and commitment to the 
mission demonstrated daily by the DHS workforce.
    Mr. Chairman, this concludes my prepared statement. I 
welcome any questions you or other Members of the Subcommittee 
may have.
    [The prepared statement of Mr. Roth follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Sensenbrenner. Thank you very much.
    Mr. Whaley?

     TESTIMONY OF HERMAN E. ``CHUCK'' WHALEY, DEPUTY CHIEF 
    INSPECTOR, OFFICE OF PROFESSIONAL RESPONSIBILITY, DRUG 
ENFORCEMENT ADMINISTRATION, UNITED STATES DEPARTMENT OF JUSTICE

    Mr. Whaley. Chairman Sensenbrenner, Ranking Member Jackson 
Lee, distinguished Members of the Subcommittee, thank you for 
the opportunity to testify here today. I appreciate the 
opportunity to explain how DEA responds to allegations of 
employee misconduct.
    I currently lead DEA's Office of Professional 
Responsibility, which conducts investigations of all 
allegations of misconduct against DEA employees. Misconduct is 
generally defined as any violation of the Federal, state, or 
local law, or any violation of DEA standards of conduct. OPR 
also monitors trends in employee conduct and behavior; makes 
recommendations to DEA's executive management when there are 
weaknesses in DEA's internal controls, policies or procedures; 
and serves as a liaison to the Office of the Inspector General 
at the Department of Justice, as well as to other law 
enforcement internal affairs units in furtherance of misconduct 
investigations.
    As a career special agent with over 30 years of law 
enforcement experience, I take my role seriously. I want to 
protect the reputation of all the DEA special agents that act 
with integrity in fulfilling our vital mission by holding 
accountable those who don't. We are DEA's single point of 
contact for all accusations of misconduct against any DEA 
employee, contractor, or deputized task force officer. This is 
true regardless of the source of the allegations, whether they 
are made anonymously by other DEA employees, supervisors, or 
the general public.
    I can assure you my office takes every allegation of 
misconduct seriously and has procedures in place to ensure that 
complete, thorough, and fair investigations are conducted. 
DEA's Office of Professional Responsibility is the first of 
three parts of DEA's Integrity Assurance Program. Our role is 
limited to the investigation of allegations of misconduct. The 
Office of Professional Responsibility has no role in the 
process of imposing discipline. We collect and document the 
facts without opinion or bias and forward that information to 
DEA's Board of Professional Conduct, which imposes discipline. 
The case is subsequently forwarded to the office of the 
deciding official, who determines any disciplinary action.
    The Office of Professional Responsibility works closely 
with the Office of the Inspector General of the Department of 
Justice to ensure all allegations are appropriately 
investigated. For every allegation that we receive, OPR shares 
the allegation with the Office of the Inspector General. OIG 
reviews each accusation of misconduct and determines how the 
complaint will be investigated. They can choose to investigate 
the complaint unilaterally, refer the complaint back to DEA and 
monitor the investigation, or they can refer the complaint back 
to OPR for us to investigate.
    While I understand we are here to talk generally about how 
misconduct allegations are handled by Federal law enforcement, 
the recent report by the Inspector General is also relevant. We 
must constantly learn lessons and seek to improve our efforts.
    In addition to implementing all of the OIG recommendations, 
DEA has taken concrete steps to improve both the training we 
provide DEA employees, as well as how we coordinate 
investigations when allegations are made in an effort to avoid 
such problems in the future. These steps include ensuring that 
it is clearly understood by all DEA employees that this kind of 
behavior is unacceptable; outlining steps that employees and 
supervisors must take when incidents occur; increasing training 
for all employees, particularly those employees assigned 
overseas; further explaining the guidelines for disciplinary 
offenses; and improving internal procedures so appropriate 
individuals and field management and the Office of Security 
Programs and the Office of Professional Responsibility are 
promptly made aware of allegations so they can take appropriate 
action in a timely manner.
    Consistent with the recent direction put forth by the 
Attorney General which seeks to not only improve the 
communication between my office and the Office of Security 
Programs, but also to review the security clearances of the 
investigative subjects cited in the OIG report, I am committed 
to continuing to review and push for changes to improve this 
process. I appreciate the feedback provided by the OIG and look 
forward to continuing to work with them to improve our systems.
    Thank you for the opportunity to be here with you today. I 
look forward to your questions.
    [The prepared statement of Mr. Whaley follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               APPENDIX A
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               APPENDIX B
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________
    Mr. Sensenbrenner. Thank you, Mr. Whaley.
    Mr. Hughes?

   TESTIMONY OF MARK HUGHES, CHIEF INTEGRITY OFFICER, UNITED 
  STATES SECRET SERVICE, UNITED STATES DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hughes. Good afternoon, Chairman Sensenbrenner, Ranking 
Member Jackson Lee, Chairman Goodlatte, and distinguished 
Members of the Subcommittee. Thank you for the opportunity to 
appear before you to discuss recent enhancements to the Secret 
Service policies and procedures that address allegations of 
employee misconduct.
    The Secret Service must address allegations of employee 
misconduct aggressively, fairly, and consistently. Any 
employee, regardless of rank or position, who violates our 
standards of conduct to include the failure to report 
misconduct will be held accountable.
    Secret Service employees take great pride in successfully 
carrying out the vital mission of our agency on a daily basis 
around the world. Unfortunately, the successes of the many have 
been overshadowed by the unacceptable failures of the few, 
resulting in significant changes to the way in which the Secret 
Service adjudicates allegations of employee misconduct.
    In May 2012, the Secret Service established the 
Professional Reinforcement Working Group, or the PRWG. This 
group, co-chaired by former OPM Director John Berry and 
Director Connie Patrick of the Federal Law Enforcement Training 
Center, affirmed many existing Secret Service practices and 
identified enhancements that could be implemented to further 
support the workforce. The Secret Service accepted these 
recommendations, and all of them have since been fully 
implemented.
    Additionally, the DHS OIG issued a report in December of 
2013 stating that it did not find evidence that misconduct is 
widespread in the Secret Service. However, the report contained 
a number of recommendations for the agency, some of which 
paralleled those of the PRWG, and all were fully implemented by 
April of 2014.
    Several recommendations focused on establishing a robust 
disciplinary process grounded on transparency, consistency, and 
fairness. They also led to the establishment of an Office of 
Integrity, a new set of disciplinary policies and procedures, 
and the development of a Table of Penalties which identifies 
specific actions that constitute misconduct, along with a range 
of potential discipline.
    As the process now stands, outside of a limited number of 
minor violations, allegations are required to be reported 
through the chain of command to the Office of Professional 
Responsibility, or the OPR. Under certain circumstances, 
including allegations that are criminal in nature or involve 
senior supervisory personnel, the agency must, pursuant to 
Department directives, refer the matter to the DHS OIG.
    The OIG will then make a determination whether to accept 
the case for further investigation or refer the matter back to 
the OPR. Following either the OIG's declination of the referral 
or the completion of its investigation, the allegations are 
forwarded to the intake group chaired by the special agent in 
charge of the Secret Service Inspection Division.
    Ultimately, substantiated allegations are presented to the 
Office of Integrity. Established in December of 2013, the 
Office of Integrity reports directly to the Office of the 
Deputy Director and oversees adherence to Secret Service code 
of conduct by impartially adjudicating employee misconduct in a 
fair, consistent, and timely manner. In accordance with the 
Table of Penalties and taking into consideration any mitigating 
factors such as the acceptance of responsibility or aggravating 
factors such as whether an employee holds a supervisory 
position, the Deputy Chief Integrity Officer will prepare a 
formal disciplinary proposal for presentation to the employee. 
Employees subject to disciplinary action are afforded certain 
procedural rights pursuant to Title 5 of the United States 
Code, regulations issued by OPM, and corresponding Secret 
Service disciplinary procedures. There is no doubt that the 
resulting process can take time and can be cumbersome. However, 
that system was put in place by Congress to protect the rights 
of the government employees, and we at the Secret Service must 
respect and operate within that framework.
    The foundation of this discipline process is strong. 
Standards of conduct will, however, need to be periodically 
reinforced and in some instances adjusted, and the consequences 
for failing to meet them will need to be clearly communicated. 
These functions are core responsibilities of the Office of 
Integrity.
    For instance, following the March 4 incident, Director 
Clancy, in coordination with my office, issued an official 
message to all Secret Service employees making clear that they 
are required to report through their chain of command any 
activities that violate the Secret Service standards of 
conduct.
    Secret Service employees are provided with a number of 
avenues to report misconduct, including the ombudsman, the OPR, 
Inspection Division, the DHS OIG, or the U.S. Office of Special 
Counsel. Those who fail to properly report misconduct will be 
held accountable.
    In summary, the Secret Service is committed to ensuring a 
strict code of professional conduct, a transparent process for 
administering discipline, and accountability regardless of rank 
or grade. While it is ultimately the individual responsibility 
of employees to adhere to the standards of conduct, the Secret 
Service understands that it must provide its employees with 
clear, comprehensive policies, and mechanisms to reinforce 
them. When misconduct is found to have occurred, there should 
be no doubt that there is a mechanism in place to deal with it 
swiftly, fairly, and consistently.
    Chairman Sensenbrenner, Ranking Member Jackson Lee, this 
concludes my testimony. I appreciate the opportunity to explain 
the Secret Service disciplinary policy and I welcome any 
questions you may have. Thank you.
    [The prepared statement of Mr. Hughes follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Sensenbrenner. Thank you very much.
    I yield myself 5 minutes.
    First, I would like to commend the two Inspectors General 
here, Mr. Horowitz and Mr. Roth, for a very comprehensive and 
enlightening report. Very infrequently do witnesses get 
commended from the Chair. Please note that this time both of 
you are being commended from the Chair, and we hope that this 
is a string that continues.
    Now, to Mr. Whaley and Mr. Hughes, let me give a couple of 
instances, particularly with the DEA.
    In 2010, there was a special agent in Bogota, Colombia who 
was a frequent patron of prostitutes, and on one of them he 
beat her up and left her bloody. He was ultimately suspended 
for 14 days.
    And the next year, in 2011, a DEA agent solicited sex from 
an undercover police officer in D.C. He was suspended for 8 
days.
    And then in 2012, we know the DEA agents engaged in sex 
parties with prostitutes supplied by drug cartels, meaning the 
bad guys that law enforcement is supposed to be penetrating and 
bringing to justice.
    Now, of those 10 agents, two received letters of reprimand, 
one retired. The remaining seven were suspended by the DEA for 
poor judgment or conduct unbecoming for 2, 1, 3, 3, 9, 10, and 
8 days, respectively.
    Now, this behavior is probably more likely to occur in a 
frat house or result in going up to the big house but has 
nothing to do with a law enforcement agency that depends upon 
the respect of the public for the support both in terms of 
appropriations as well as credibility in what they do.
    Now, let me ask you first, Mr. Whaley, since these were DEA 
agents. Just in your personal and private opinion, how long do 
you think those suspensions should have been? We will start out 
with the one who, in Colombia, was a frequent patron of 
prostitutes and left one of them beaten and bloody. Is 14 days 
enough?
    Mr. Whaley. Sir, that behavior that that agent engaged in 
is absolutely deplorable to me, and----
    Mr. Sensenbrenner. Should he have been fired?
    Mr. Whaley. In my opinion, he should have been fired. Yes, 
sir.
    Mr. Sensenbrenner. Okay. Now, what is wrong with the 
system? Why wasn't he fired?
    Mr. Whaley. Well, DEA's disciplinary system is comprised of 
three parts, the OPR----
    Mr. Sensenbrenner. You have already told us what the three 
parts are.
    Mr. Whaley. Yes.
    Mr. Sensenbrenner. You think he should be fired. I think 
everybody on this Subcommittee thinks he should be fired. What 
changes in the system are needed to make sure that somebody who 
is a repeat offender, from what was in the report, is fired?
    Mr. Whaley. Sir, the decision to fire someone would be that 
of the deciding official. I thought the behavior exhibited by 
that man was deplorable, and if I had the power I would have 
fired him.
    Mr. Sensenbrenner. Okay.
    Mr. Whaley. But it would be up to the deciding official 
to----
    Mr. Sensenbrenner. Now, in D.C., soliciting a prostitute 
who was an undercover police officer only got a suspension. 
Isn't that a tap on the wrist?
    Mr. Whaley. I was particularly offended by that case 
because you had an undercover police officer that was a witness 
against the agent, and I agree in that case that he should have 
been removed from service as well.
    Mr. Sensenbrenner. Okay. Then we have the DEA agents who 
were engaged in sex parties with prostitutes supplied by drug 
cartels. The longest suspension was 10 days, and I listed a 
whole bunch of other numbers. Obviously, if you are engaged in 
a sex party with prostitutes that are supplied by the folks 
that you are supposed to be enforcing the law against, that 
certainly is the ultimate conflict of interest.
    Now, do you think that maybe we should have kind of a 
suspension suggestion, like we do with the sentencing 
guidelines and trying to match offenses, so that somebody at 
least has an acceptable period of suspension depending upon how 
heinous the offense is?
    Mr. Whaley. Sir, in the instance you are referring to in 
Bogota, I was concerned not only by the sexual conduct engaged 
in by the agents with prostitutes and living quarters and the 
close proximity, but also the transactions that were going on 
between them. So in that case, yes, absolutely, I think they 
were under-punished.
    Mr. Sensenbrenner. Well, you can understand why Congress 
and the public is upset when we see this outrageous behavior 
that is happening, and in every one of these instances I have 
cited the suspension has been less than a light tap on the 
wrist.
    The gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I join 
you in this hearing and I believe this is an important hearing. 
Responsibilities that we have on behalf of the American people 
is for oversight.
    Let me say that I am sickened by the series of stories that 
we have had to face in our local communities as we have opened 
our local newspapers, because most of Americans view all of the 
services that are before me, from the FBI, who is not present, 
but the DEA, the ATF, the Secret Service, U.S. Marshalls and 
beyond, in a very high level of respect.
    You carry the mantra, the red, white and blue, the stars 
and stripes, the highest level of integrity. And frankly, I am 
very disappointed that we are even having to have this hearing.
    I just want to take just a moment as I make just a comment 
about law enforcement and the concepts of criminal justice that 
I wanted to make mention of in my opening statement. This is 
the first criminal justice committee hearing since the killing 
of Walter Scott and the unfortunate incident in Arizona where 
one was to have a stun gun but yet had a gun that wound up in 
the death of an individual in Arizona.
    I would indicate that I hope and look forward to the fact 
of being able to have hearings on the use of lethal force by 
state and local police departments, educational requirements, 
mental health and psychological evaluations, and training in 
non-violent conflict resolution received by officers and 
recruits, the use of technological devices such as body 
cameras, the state of social science such as securing 
statistics about the use of lethal force.
    And I say that because there are many people in America, no 
matter what their racial background, who are crying out for 
relief. The victim's mother, meaning Walter Scott's mother, the 
incident that happened in South Carolina, stated that ``I 
almost couldn't look at it to see my son running defensively, 
being shot. It just tore my heart to pieces. I pray that this 
never happens again.'' And I think we in the United States 
Congress have a responsibility to make sure that it never 
happens again.
    As a segue to my series of questions, I hope that what we 
are confronting today on the Federal level, that we can say 
that it never happens again.
    Let me quickly, Mr. Horowitz--and I will be stopping 
questioning since I want to get to a number of questions--your 
detailed IG report made reference, I believe, to the fact that 
there may have been few, but our review of the handling of 
these allegations of harassment and sexual misconduct reveal 
some significant systemic issues with the components processes 
that we believe require prompt corrective action.
    So let me pointedly say to you, why is there not a process 
to fire these bad actors?
    Mr. Horowitz. Congresswoman, there is a process, and the 
disciplinary process that goes forward under Title 5 would 
require a charging decision, and one of the concerns we 
highlighted, as you noted, was the charges being filed. The 
charges being filed were not the charges that the table that 
the DEA provides for these kind of offenses. Had certain 
charges been brought, a minimum 14-day penalty would have been 
required, up to possible removal. In the sexual harassment case 
that we cited in our report, if sexual harassment had been 
charged and found, removal would have been the only penalty.
    So one of our concerns was, like in many decisions you make 
with discretion, what decisions were being made at DEA about 
what to charge, and the most serious penalties, the most 
appropriate charges it didn't seem to us were being filed.
    Ms. Jackson Lee. Let me move to Mr. Roth. Thank you.
    Mr. Roth, you mentioned in your statement, you discuss 
problems with the corruption of border agents and CBP. Please 
tell us more about these issues, whether the agencies involved 
are appropriately addressing the problems. I really need a 
succinct, quick answer.
    Mr. Roth. Certainly. When we talk about border corruption, 
we are talking about criminal activity, largely. We work 
closely with the CBP internal affairs offices and the U.S. 
Attorney's Office----
    Ms. Jackson Lee. So the point is?
    Mr. Roth. They are addressing it, usually through criminal 
means.
    Ms. Jackson Lee. Mr. Whaley, with the DEA, let me say that 
I was in Colombia during this horrific incident, and I think we 
should read into the record that the report states that DEA 
agents had sex parties with prostitutes hired by local drug 
cartels overseas for several years. One of those happened to be 
in Colombia. That triggered the investigation in the Secret 
Service.
    So it is baffling to me--it is alleged that three 
supervisory DEA agents were provided with money, expensive 
gifts, and weapons from drug cartel members. It baffles that we 
do not have an expedited process, and I, for one, am a strong 
supporter of the rights of workers. But the question is, if you 
already had a record of complete ignoring of the rights of 
individuals, tell me why some immediate changes were not made.
    Mr. Whaley. The investigation in Bogota happened in 2010, 
prior to the Cartagena in 2012, and both of them were decided 
at approximately the same time.
    Mr. Sensenbrenner. The time of the gentlewoman has expired.
    The gentleman from Virginia, the Chair of the full 
Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    I have said many times how much respect I have for Federal 
law enforcement officers who combat the drug cartels and the 
scourge of drugs in this country, who track down terrorists and 
prevent terrorist attacks, who put their lives on the line to 
protect the President of the United States and others, and the 
people around him. But that is not why we are here today. This 
is very concerning to me.
    Mr. Whaley's testimony says that the DEA generally has an 
excellent working relationship with the Office of the Inspector 
General, particularly when it comes to investigative matters. 
So I want to ask you, Mr. Horowitz, do you agree with that 
statement, and are you confident that the DEA is committed to 
reform in this area?
    Mr. Horowitz. As we noted in our report, we had serious 
concerns in this review as to how we were given materials. On 
the investigative side, we have had a strong relationship. We 
have had difficulties up until recently with regard to audits 
and reviews like this one. That has improved recently, and I 
will say that the problems currently are primarily with the 
FBI.
    Mr. Goodlatte. So you were not getting cooperation prior to 
this, but with the DEA you are getting more cooperation now 
with regard to the data and information and the ability to go 
in and examine and conduct an audit?
    Mr. Horowitz. That is correct. In fact, Section 218 I think 
has had an impact in a positive way with regard to the 
compliance by DEA.
    Mr. Goodlatte. Now, with regard to the FBI, your testimony 
and your report discusses the failures of the DEA and the FBI 
to promptly provide all the information you requested despite 
the requirements in Section 218 of the Fiscal Year 2015 
Appropriations Act, where we specifically address this. Is 
there a legislative solution to this problem beyond what we 
have already done?
    Mr. Horowitz. I have to say, I think the law is clear that 
we should be getting the materials. I think the appropriators, 
frankly, will have to look and Congress will have to consider 
what it means for an organization to not follow a crystal clear 
provision that Congress has put in place.
    Mr. Goodlatte. In other words, we could withhold some funds 
from an agency for failure to comply.
    Mr. Horowitz. I think it is up to the Congress to decide 
how to treat such a----
    Mr. Goodlatte. You know, I hate to do that with the FBI. 
They have a very important and very serious role. But it is 
also important that they respect the Office of the Inspector 
General. I have raised this with the Director of the FBI. Has 
there been no improvement there?
    Mr. Horowitz. There has been no change at all since 
December when Congress passed that provision.
    Mr. Goodlatte. Your testimony, Mr. Roth, describes in 
detail the allegations of Secret Service misconduct in 
Cartagena, Colombia, and the new rules it has instituted 
regarding personal conduct. Are you confident that the Secret 
Service appears to be taking this matter seriously? Because it 
seems to have gone on for several years without them taking it 
seriously when we have seen three or four instances just since 
the beginning of this year.
    Mr. Roth. There is no question that the Secret Service has 
taken steps to try to combat this problem. One of the issues 
that we have is we believe that there is a feeling among law 
enforcement officers, Secret Service officers, that they are 
not able to report misconduct up the chain because they will be 
either retaliated against or those complaints will be ignored. 
We think that is a serious problem within the Secret Service.
    We do applaud the structural changes, for example in Mr. 
Hughes' group, that have been instituted as a result of our 
December 2013 inspection.
    Mr. Goodlatte. Is there anything the agency is not doing 
that you feel it should?
    Mr. Roth. I think it is a difficult problem. I think the 
message has to be said loud and clear as to what is acceptable 
conduct, and there has to be the ability for agents to be able 
to report misconduct in a way that allows them to do so without 
fear of retaliation.
    Mr. Goodlatte. Mr. Whaley, on Monday evening the Justice 
Department sent a letter to this Committee identifying a couple 
of significant failures by OPR in connection with the 
investigation, including a failure to fully investigate the 
misconduct and a failure to properly refer the matter to the 
Office of Security Programs. Why were those failures allowed to 
happen?
    Mr. Whaley. I concur that the investigations cited in the 
OIG report were not done as thoroughly as they should have 
been. I can assure you that going forward I will personally 
ensure that the investigations are done as thoroughly as I can 
possibly control.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. Thank you.
    The gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I would like to ask this question of Mr. Horowitz, Mr. Roth 
and Mr. Whaley.
    Recently it has come to light that in 2013 the DEA was 
caught impersonating an individual on Facebook, including using 
provocative photos of her and pictures of her children without 
her permission or knowledge. In a January 2015 article in 
Newsweek magazine, it stated that the Justice Department 
recently reached a settlement with the woman impersonated by 
the DEA to the tune of $134,000 of taxpayer money.
    Additionally, there is a presentation that was put together 
by the DHS Inspector General's Office explaining how to use 
fake Facebook pages in an attempt to infiltrate drug rings. At 
the same time, the FBI is shopping for location-based social 
media monitoring.
    Should law enforcement be able to utilize social media to 
monitor or impersonate Americans without a court order or 
informed consent of the Americans being impersonated, as other 
types of monitoring require?
    Mr. Horowitz. Congressman, you raise some very significant 
issues and something we have had concerns about and have been 
discussing internally, and we have done some reviews in these 
areas and are considering, frankly, in light of some of the 
reports and news you cited, whether we need to look in other 
areas as well.
    Mr. Chabot. Mr. Roth?
    Mr. Roth. It is certainly a matter of concern any time that 
you have this kind of conduct that exposes the United States 
taxpayer to this kind of potential fiscal liability. We ought 
to be looking at that, and certainly that is something that we 
are considering as well.
    Mr. Chabot. Mr. Whaley?
    Mr. Whaley. I know that the instant case you discussed was 
handled civilly through the court system. It wasn't handled by 
OPR, but I certainly can see the privacy protection concerns 
being discussed by you, sir.
    Mr. Chabot. All right, very good. Well, we appreciate your 
attention to this matter to the degree possible. Let me move on 
to another question.
    Mr. Horowitz, I will ask you about this. Your testimony 
touches on two specific OIG reports regarding misconduct by 
employees with the DOJ, specifically referring to those actions 
by DEA employees. I was interested in finding out about whether 
or not there has been any review of the DEA's use of the 
license plates LPR technology in unsavory or nefarious ways. 
During a recent staff briefing given by DEA employees, it was 
indicated that there have been no identified instances of 
misconduct by those law enforcement officers using the database 
of license plates.
    Has there ever been an objective outside audit or review on 
this matter? And with all the other issues facing law 
enforcement branches of the DOJ, has this been an issue 
discussed internally, or do you take them on their word that 
all the users of the database system are using it specifically 
for law enforcement purposes and not for other purposes?
    Mr. Horowitz. We have not conducted a review of that. We 
have noticed, again, the stories and the issues you have 
identified, and again it is something we have discussed. I 
would be happy to come and speak further with you and your 
staff about it as we consider those issues as well.
    Mr. Chabot. All right. I would appreciate that, and I will 
have my staff follow up with you on that particular matter.
    I will yield back at this time, Mr. Chairman.
    Mr. Sensenbrenner. Thank you.
    The gentleman from Texas, Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you all for being here.
    I am embarrassed about this whole situation. It is 
embarrassing. It is embarrassing to the country.
    I am a former criminal court judge. I know a lot of peace 
officers. And like has been said, generally speaking, peace 
officers do the work nobody else would do. I respect them a 
great deal. And this conduct that has been discussed here today 
is not so much a reflection on the rest of us, but it hurts 
good peace officers throughout the country, those that work at 
the DEA, Secret Service, and state agencies, because too many 
want to classify all of them based upon the conduct of a few 
here.
    But the ones, from what I hear, it seems like some believe 
in this system that the rule is for thee but not for me, and 
they are not held accountable for what they do as other people 
in the country would be held accountable for.
    So, Mr. Whaley, just based upon looking at you, you seem to 
be a little embarrassed about this whole situation. Is that a 
fair statement?
    Mr. Whaley. Yes, sir. I hold DEA agents in the highest 
regard, and this is very embarrassing to me.
    Mr. Poe. I mean, it is tough work. They are all over the 
world. They are working undercover. Nobody knows what they are 
doing for the good of this country, and here we have a few that 
have hurt the reputation really of the whole agency.
    I have questions for both you and Mr. Hughes. I will ask 
you first. Mr. Hughes, I want to ask you the same questions.
    Let's use 2013, or 2014. Maybe you got those. How many 
complaints have been filed against DEA agents in 2014?
    Mr. Whaley. In 2014, it is approximately 860 allegations of 
misconduct.
    Mr. Poe. That is fine, allegations. Of those allegations, 
how many did you determine, your agency determine were bona 
fide allegations?
    Mr. Whaley. I don't have an exact number here with me 
today, but----
    Mr. Poe. Well, why not?
    Mr. Whaley. It is going to be approximately 160-some-odd.
    Mr. Poe. One hundred and sixty.
    Mr. Whaley. Somewhere in that range, yes.
    Mr. Poe. Okay, 160. How many of those in 160 were 
disciplined by being fired?
    Mr. Whaley. I could take that question back and have that 
researched for you, sir.
    Mr. Poe. Any?
    Mr. Whaley. I do know there have been some removals.
    Mr. Poe. Five?
    Mr. Whaley. I don't know the exact number, sir.
    Mr. Poe. Would you be surprised--I mean, you don't know 
what number it is.
    Mr. Whaley. No, sir, I don't.
    Mr. Poe. Okay. How many of them went to jail, were 
prosecuted and went to jail?
    Mr. Whaley. There have been a number of personnel 
incarcerated.
    Mr. Poe. How many?
    Mr. Whaley. I don't know the exact number, sir.
    Mr. Poe. Mr. Roth, do you know?
    Mr. Roth. I do not.
    Mr. Poe. Mr. Horowitz?
    Mr. Horowitz. I can get that quickly, but I don't know the 
answer.
    Mr. Poe. Okay. I want the answer.
    Mr. Sensenbrenner. Without objection, the responses will be 
put in the record at this point.
    Mr. Poe. Mr. Hughes, the same questions. In 2014, how many 
allegations, complaints, by any source, were made against a 
Secret Service agent?
    Mr. Hughes. Congressman, we have approximately 100 to 120 
cases that we provided formal discipline on.
    Mr. Poe. All right. Would that include all the complaints, 
even the unfounded ones? That is what I am asking you, all the 
complaints made against Secret Service agents.
    Mr. Hughes. I don't have a solid number for you on that, 
sir.
    Mr. Poe. So you don't know how many complaints were made by 
any source.
    Mr. Hughes. A majority of the cases that we provided formal 
discipline on were substantiated and were the allegations that 
came forward. The way the Office of Integrity works, our 
initial stage is an intake stage which evaluates the 
circumstances surrounding an allegation.
    Mr. Poe. But you can find out the number of allegations.
    Mr. Hughes. Yes, sir. I can get that for you.
    Mr. Poe. Somewhere along the system, those were removed, 
and you had how many bona fide accusations?
    Mr. Hughes. That would be approximately 100.
    Mr. Poe. How many of those 100 were fired?
    Mr. Hughes. Two.
    Mr. Poe. How many went to jail for criminal violations?
    Mr. Hughes. None.
    Mr. Poe. Nobody went to jail.
    Mr. Hughes. No, sir.
    Mr. Poe. Were any of those--well, how many people were 
prosecuted?
    Mr. Hughes. None. To the best of my knowledge, there were 
none, sir.
    Mr. Poe. So, what were the allegations? Can you give us a 
list of the allegations that were found to be bona fide by the 
Secret Service of that 100-plus?
    Mr. Hughes. I would be able to get that list for you. Yes, 
sir.
    Mr. Poe. And nobody went to jail.
    Mr. Hughes. No. Out of all the allegations and discipline 
that was brought forward, there were no--very limited criminal 
activities that were followed up on within the judicial system.
    Mr. Poe. I ask unanimous consent, Mr. Chairman, to submit a 
list of questions for each of the witnesses and their answers 
be given back to the Chair.
    Mr. Sensenbrenner. Without objection, the witnesses are 
directed to respond promptly so this can be printed in the 
Committee record.
    Mr. Poe. I yield back. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your service.
    I am concerned about these actions, mostly because of what 
it does with the trust that the general public has with law 
enforcement, and I assume that you have the same concern. It 
seems, at a time when we have this 24-hour news and we have all 
these issues that are happening in America, that continuing to 
talk about these issues is bringing down the trust that the 
American people have in your agencies, and I don't want that. I 
want the opposite. I want people to really feel like they are 
being empowered and being protected by your agencies.
    Mr. Horowitz, I have a few questions for you. In your 
written testimony you discuss the lack of clarity regarding 
off-duty conduct for agency personnel and relate that these 
conduct requirements have not been updated since 1996. I 
understand that clarity for off-duty conduct is vital. However, 
don't you find that a little bit troubling, that these agencies 
would require more training and more clarity just to determine 
that hiring prostitutes is not the right thing when you are 
protecting the President of the United States?
    Mr. Horowitz. Unfortunately, I think it is pretty clear 
from what we have reported here that there does need to be 
training and a greater understanding of what is allowed and 
what off-duty is not allowed.
    Mr. Labrador. But what is it about the culture that would 
tell you that that is okay without clarity? I guess that is 
where I am having a hard time. To me, that is pretty clear. I 
don't need any additional training to let me know that I 
shouldn't be doing that.
    Mr. Horowitz. I completely agree with you, Congressman. But 
I think what is evident here about the culture, certainly that 
existed at the time of these events, was how they ultimately 
came to be reported, which we describe in our report. So we 
have three incidents in there that we describe related to the 
prostitution issues. One is in the 2001-2004 time period. OPR 
learns of that not from a DEA employee supervisor reporting but 
when they arrest Colombian national police for corruption. That 
is how it gets reported.
    The second one is from 2005 to 2008. That gets reported in 
June 2010 in an anonymous letter.
    The third one gets reported by the State Department, not by 
DEA, and I think that is indicative of the culture and the 
problem and a reform that has to happen. Those reports need to 
go not 5 years later or 10 years later from somebody else but 
immediately.
    Mr. Labrador. So, can you describe the type of training, 
and quickly, the type of training that you feel will 
effectively prevent these instances of inappropriate conduct?
    Mr. Horowitz. Well, first of all, there has to be clarity 
on what is allowed and what is clearly not allowed. That was 
missing. Whether it should have been obvious or not, it wasn't 
to certain folks. That has to happen. There has to be real and 
rigorous training. The State Department, as we indicate in our 
report, the State Department has rigorous training, the Defense 
Department has rigorous training, and the FBI has put in place 
some comprehensive training. There is no reason that the other 
law enforcement components shouldn't be doing the same thing.
    Mr. Labrador. Okay. So if the offenders felt that this 
behavior was okay despite a set of clear expectations, why 
weren't they reported every time? What is missing from the 
reporting requirements that we need to change?
    Mr. Horowitz. I think there are a couple of things that 
should happen. First and foremost, there needs to be a clear, 
unequivocal understanding of the responsibilities of every 
supervisor that they need to report this kind of misconduct to 
headquarters, to OPR immediately.
    Number two, there has to be consequences for not doing 
that. Much of the discussion is about the actions of the actors 
here. But the failures of the supervisors are equally serious. 
They didn't have to engage in the prostitution, but they knew 
what was going on and didn't take action, and that allowed this 
to continue.
    Mr. Labrador. So if the issue is that the expectations were 
not clear, and you say that the expectations have not been 
updated since 1996, why hasn't that been done since 1996? Why 
haven't we updated the expectations on a regular basis?
    Mr. Horowitz. It clearly should have been done. We issued a 
report in 1996 after the good old boy roundup allegations that 
occurred back then about much similar issues and allegations, 
but in the United States. Twenty years later, 19 years later, 
nothing has changed. It should have happened. I think these 
kind of hearings and discussions will cause it to happen now.
    Mr. Labrador. Do you think there have been more instances 
of inappropriate conduct that were simply not reported because 
the expectations were not clear?
    Mr. Horowitz. That is a great question, Congressman, 
because as we indicate here, we found a relatively low number 
of instances, but then you have to step back and ask what don't 
we know, right? If in the three instances I described it took 
someone else to report what was going on, I don't think any of 
us can say with any certainty we know what the scope of the 
issues were because folks at DEA were not reporting these 
events. The corrupt Colombian police officers were, the State 
Department did, and an anonymous letter did. And that has got 
to change.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Horowitz, are you familiar with the incident in the 
U.S. Attorney's Office in the Eastern District of Louisiana 
where top Assistant U.S. Attorneys were blogging and commenting 
on cases online?
    Mr. Horowitz. I am.
    Mr. Richmond. Have you read the OPR report?
    Mr. Horowitz. I have read a summary of the OPR report. I 
actually have not read the full report.
    Mr. Richmond. What is troubling to me--first of all, the 
OPR report I think was done in 2013, and it was just released 
to the public 2 weeks ago. But what the report seems to 
outline, first of all, I think the conduct of the Assistant 
U.S. Attorneys borders on criminal violations, and I would ask 
that the office look into those, because they have put people 
in jail for less than what they did. If you are talking about 
New Orleans and the Eastern District of Louisiana, there is a 
very severe, I would say, distrust of the U.S. Attorney's 
Office and our Federal law enforcement there, and I don't think 
that this breeds any more confidence in that, and the U.S. 
Attorney's Office has done some very good things.
    But this scandal appears to be something that, from the 
public perception and my perception, something that is being 
swept under the rug and not investigated to its end conclusion. 
I know that the Inspector General's Office did not do it, and I 
would like the Inspector General's Office to get involved 
because I am sure, as I sit here today, that there were FBI 
agents that were also involved in this, and the OPR report--I 
am not sure if they even had the authority to wage an 
investigation into whether the Federal law enforcement partners 
of the U.S. Attorney's Office was also engaged in that 
activity.
    But the culture in that U.S. Attorney's Office was that of 
a rogue frat house, with the authority to charge people where 
the charging document says ``United States of America versus 
you.'' And when people get charged, you know and I know that it 
up-ends their life and their life goes on a different journey.
    I am not sitting here defending anyone who has been 
indicted or charged for breaking the law, but I do want a U.S. 
Attorney's Office that is trustworthy, and I want to know that 
my FBI agents in that office, in my district, are playing above 
board. As I sit here today, I can't tell you that I have that 
trust about all of them.
    What is it that your office can do in terms of a follow-up 
investigation and looking into the actions of the law 
enforcement as it relates to that case, and just a general 
interaction with my U.S. Attorney's Office?
    Mr. Horowitz. Congressman, on that matter, we had some 
involvement later on in the process, and I am happy to talk 
further with you. I have to go back and refresh myself and also 
understand what I am able to say and might need to say in 
private to you about the work we did and what we have learned 
or not learned. But one of the concerns we had, and I know we 
talked about this a year or two ago when this occurred, was we 
only came to know about this nearer to the end of the process 
than to the beginning because the Department referred the 
matter to the Office of Professional Responsibility, not to the 
OIG.
    Primarily there is the issue out there about our 
jurisdiction, and the Inspector General limits our ability to 
look at certain matters. In this area, frankly, we thought we 
could have done that work, and ending that limitation on our 
jurisdiction needs to occur so that if we are going to be 
involved in something, we are involved at the earliest parts of 
it when the information is fresh and people, for example, are 
still working in that office who are available to us, because 
we don't have the ability to question people who have left the 
office as we would when they were still in the office.
    So I would be interested in talking with you further about 
that and how we can move forward and speak to you about those 
issues.
    Mr. Richmond. And I would be interested in knowing the 
specific language of the limitations, and a cite would be 
helpful because I would be interested in lifting some 
limitations. I think the OPR report was carefully written, to 
say the least, to still try to put the office in the best light 
and protect individuals. Even the version that was released was 
redacted significantly. I have heard many people express 
concern.
    But what that did is we had convictions overturned because 
of that report, and we had an entire investigation that was 
dismissed because of it. So, I would love to talk to you.
    Mr. Chairman, thank you for the time, and I yield back.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The Chair recognizes the gentlewoman from Texas, Ms. 
Jackson Lee, for 2 additional minutes to get an answer to a 
question she was propounding to Mr. Whaley.
    Do you remember what the question was, sir?
    Ms. Jackson Lee. I will restate it.
    Mr. Sensenbrenner. Okay.
    Ms. Jackson Lee. Let me restate it.
    Mr. Whaley, we have learned in recent days that the sex 
parties and the solicitation of prostitutes by DEA agents in 
Colombia went back as far as 2001. So I was pressing the point 
of when your office learned of the behavior, when did you 
become aware of the solicitation, and the question is what you 
did about criminal behavior that is obviously separate from 
other work failures; and why, in knowing this, there was not an 
expedited process for those who were on the brink of criminal 
behavior? So the process that you offered I think has to 
separate itself when you are dealing with actors who were 
engaged or DEA agents who were engaged in what could be 
considered criminal behavior.
    Mr. Whaley. Just like you, I am concerned about the 
behavior that was done down there. Like you said, the behavior 
happened, began in around 2001. It was reported to OPR in 2010 
after the arrest of the corrupt CMP officers.
    Ms. Jackson Lee. You didn't know before 2010 about the 
behavior in 2001 that was going on for 9 years?
    Mr. Whaley. That is correct.
    Ms. Jackson Lee. So, if I may, Mr. Whaley, have you looked 
back to cure that very severe problem, which is 9 years you did 
not know? And as you know, as I indicated, I was in Colombia 
with the President when the incidents occurred, and I can 
assure you it was an international incident because you were 
dealing with young women who were prostitutes. But the question 
is, then, we are talking about a culture that no one, 
supervisor or otherwise, never got to headquarters. Is that 
what you are saying?
    Mr. Whaley. I don't believe there is a culture problem in 
DEA. None of the agents I have ever worked with, anywhere I 
have ever worked, have engaged in similar behavior. But there 
were different sets of incidents, one that ran from 2001 to 
approximately 2004, and then 2009-2010 to 2012.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    Ms. Jackson Lee. I will submit questions for the record, 
Mr. Chairman.
    Mr. Sensenbrenner. Without objection, all Members may 
submit questions to the witnesses within the next 5 days.
    If you receive any of these questions, it would be 
appreciated that you promptly respond so that the answers can 
be placed in the record.
    This concludes the business that we have before the 
Subcommittee today, and without objection, the Subcommittee 
stands adjourned.
    [Whereupon, at 3:10 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Response to Questions for the Record from the Honorable Michael E. 
    Horowitz, Inspector General, United States Department of Justice
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

  Response to Questions for the Record from the Honorable John Roth, 
    Inspector General, United States Department of Homeland Security
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

 Response to Questions for the Record from Herman E. ``Chuck'' Whaley, 
  Deputy Chief Inspector, Office of Professional Responsibility, Drug 
    Enforcement Administration, United States Department of Justice
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

Response to Questions for the Record from Mark Hughes, Chief Integrity 
  Officer, United States Secret Service, United States Department of 
                           Homeland Security
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>
</pre></body></html>
